No. 19-618
In The

Supreme (^Lauri ai il]e
Jon Eric Shaffer,
Petitioner,
V.

Commonwealth of Pennsylvania,
Respondent.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 16th day of December 2019, caused three copies of the Brief
of The DKT Liberty Project, The Due Process Institute, and Reason Foundation as
Amici Curiae in Support of Petitioner to be served via overnight mail and an electronic
version of the document to be transmitted via the Court’s electronic filing system to:
Amir H. Ali
Roderick & Solange MacArthur
Justice Center
777 6th St. NW
11th Floor
Washington, DC 20001
(202) 869-3434
amir.ali@macarthurjustice.org

William Ross Stoycos
Pennsylvania Office of Attorney General
16th Floor Strawberry Square
Harrisburg, PA 17120
(484) 467-7395
wstoycos@attorneygeneral.gov
Counsel for Commonwealth of Pennsylvania

Counsel for Jon Eric Shaffer

-/aqO
Jessica King Amunson

